No. 20-1199

 

IN THE

Supreme Court of the United States

STUDENTS FOR FAIR ADMISSIONS, INC.,
Petitioner,

Vv.

PRESIDENT AND FELLOWS OF HARVARD COLLEGE,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the First Circuit

BRIEF OF HAMILTON LINCOLN LAW INSTITUTE AS
AMICUS CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,800 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 81, 2021.

 

Colin Casey Hagan
Wilson-Epes Printing Co., Inc.
